(1 ot b)

Case: 19-55905, 12/10/2020, ID: 11921943, DktEntry: 46-1, Page 1 of 2

FILED

NOT FOR PUBLICATION

DEC 10 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DAVID LOUIS WHITEHEAD,
Plaintiff-Appellant,

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

19-55905

D.C. No. 2:19-cv-05500-JFW-RAO

v.

MEMORANDUM*
NETFLIX, INC.; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
John F. Walter, District Judge, Presiding
Submitted December 2, 2020**
Before:

WALLACE, SILVERMAN, and BRESS, Circuit Judges.

David Louis Whitehead appeals pro se from the district court’s order
dismissing his action under a pre-filing vexatious litigant order. We have
jurisdiction under 28 U.S.C. § 1291. We review for an abuse of discretion. Moy v.
United States, 906 F.2d 467, 469 (9th Cir. 1990). We affirm.

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

(2 or b)
Case: 19-55905, 12/10/2020, ID: 11921943, DktEntry: 46-1, Page 2 of 2

The district court did not abuse its discretion by rejecting Whitehead’s
proposed filings and dismissing his action because the filings were within the
scope of the district court’s pre-filing vexatious litigant order. See Weissman v.
Quail Lodge, Inc., 179 F.3d 1194, 1197 (9th Cir. 1999) (“District courts have the
inherent power to file restrictive pre-filing orders against vexatious litigants with
abusive and lengthy histories of litigation. Such pre-filing orders may enjoin the
litigant from filing further actions or papers unless he or she first meets certain
requirements, such as obtaining leave of the court.. ..” (internal citation
removed)).
We reject as without merit Whitehead’s contentions that the district judge
and magistrate judges should have recused themselves from this action.
Whitehead’s pending motions are denied.
AFFIRMED.

2

19-55905

ot b)

Case: 19-55905, 12/10/2020, ID: 11921943, DktEntry: 46-2, Page 1 of 4

United States Court of Appeals for the Ninth Circuit
Office of the Clerk
95 Seventh Street
San Francisco, CA 94103
Information Regarding Judgment and Post-Judgment Proceedings
Judgment
This Court has filed and entered the attached judgment in your case.
Fed. R. App. P. 36. Please note the filed date on the attached
decision because all of the dates described below run from that date,
not from the date you receive this notice.
Mandate (Fed. R. App. P. 41; 9th Cir. R. 41-1 & -2)
•
The mandate will issue 7 days after the expiration of the time for
filing a petition for rehearing or 7 days from the denial of a petition
for rehearing, unless the Court directs otherwise. To file a motion to
stay the mandate, file it electronically via the appellate ECF system
or, if you are a pro se litigant or an attorney with an exemption from
using appellate ECF, file one original motion on paper.
Petition for Panel Rehearing (Fed. R. App. P. 40; 9th Cir. R. 40-1)
Petition for Rehearing En Banc (Fed. R. App. P. 35; 9th Cir. R. 35-1 to -3)
(1)

A.

Purpose (Panel Rehearing):
A party should seek panel rehearing only if one or more of the following
grounds exist:
A material point of fact or law was overlooked in the decision;
►
A change in the law occurred after the case was submitted which
►
appears to have been overlooked by the panel; or
An apparent conflict with another decision of the Court was not
►
addressed in the opinion.
Do not file a petition for panel rehearing merely to reargue the case.

B.

Purpose (Rehearing En Banc)
A party should seek en banc rehearing only if one or more of the following
grounds exist:

Post Judgment Form - Rev. 12/2018

l

(4 or b)
Case: 19-55905, 12/10/2020, ID: 11921943, DktEntry: 46-2, Page 2 of 4

►

►
►

Consideration by the full Court is necessary to secure or maintain
uniformity of the Court’s decisions; or
The proceeding involves a question of exceptional importance; or
The opinion directly conflicts with an existing opinion by another
court of appeals or the Supreme Court and substantially affects a
rule of national application in which there is an overriding need for
national uniformity.

(2)

Deadlines for Filing:
•
A petition for rehearing may be filed within 14 days after entry of
judgment. Fed. R. App. P. 40(a)(1).
•
If the United States or an agency or officer thereof is a party in a civil case,
the time for filing a petition for rehearing is 45 days after entry of judgment.
Fed. R. App. P. 40(a)(1).
•
If the mandate has issued, the petition for rehearing should be
accompanied by a motion to recall the mandate.
•
See Advisory Note to 9th Cir. R. 40-1 (petitions must be received on the
due date).
•
An order to publish a previously unpublished memorandum disposition
extends the time to file a petition for rehearing to 14 days after the date of
the order of publication or, in all civil cases in which the United States or an
agency or officer thereof is a party, 45 days after the date of the order of
publication. 9th Cir. R. 40-2.

(3)

Statement of Counsel
•
A petition should contain an introduction stating that, in counsel’s
judgment, one or more of the situations described in the “purpose” section
above exist. The points to be raised must be stated clearly.

(4)

Form & Number of Copies (9th Cir. R. 40-1; Fed. R. App. P. 32(c)(2))
•
The petition shall not exceed 15 pages unless it complies with the
alternative length limitations of 4,200 words or 390 lines of text.
•
The petition must be accompanied by a copy of the panel ’ s decision being
challenged.
•
An answer, when ordered by the Court, shall comply with the same length
limitations as the petition.
•
If a pro se litigant elects to file a form brief pursuant to Circuit Rule 28-1, a
petition for panel rehearing or for rehearing en banc need not comply with
Fed. R. App. P. 32.

Post Judgment Form - Rev. 12/2018

2

(5 or b)

Case: 19-55905, 12/10/2020, ID: 11921943, DktEntry: 46-2, Page 3 of 4
The petition or answer must be accompanied by a Certificate of Compliance
found at Form 11, available on our website at www.ca9.uscourts.gov under
Forms.
You may file a petition electronically via the appellate ECF system. No paper copies are
required unless the Court orders otherwise. If you are a pro se litigant or an attorney
exempted from using the appellate ECF system, file one original petition on paper. No
additional paper copies are required unless the Court orders otherwise.
Bill of Costs (Fed. R. App. P. 39, 9th Cir. R. 39-1)
•
The Bill of Costs must be filed within 14 days after entry of judgment.
•
See Form 10 for additional information, available on our website at
www.ca9.uscourts.gov under Forms.
Attorneys Fees
Ninth Circuit Rule 39-1 describes the content and due dates for attorneys fees
applications.
All relevant forms are available on our website at www.ca9.uscourts.gov under Forms
or by telephoning (415) 355-7806.
Petition for a Writ of Certiorari
•
Please refer to the Rules of the United States Supreme Court at
www. supreme court .gov
Counsel Listing in Published Opinions
•
Please check counsel listing on the attached decision.
•
If there are any errors in a published opinion, please send a letter in writing
within 10 days to:
►
Thomson Reuters; 610 Opperman Drive; PO Box 64526; Eagan, MN 55123
(Attn: Jean Green, Senior Publications Coordinator);
and electronically file a copy of the letter via the appellate ECF system by using
►
“File Correspondence to Court,” or if you are an attorney exempted from using
the appellate ECF system, mail the Court one copy of the letter.

Post Judgment Form - Rev. 12/2018

3

(b or b)
Case: 19-55905, 12/10/2020, ID: 11921943, DktEntry: 46-2, Page 4 of 4

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 10. Bill of Costs
Instructions for this form: http://www.ca9.uscourts.gov/forms/forml0instructions.pdf

9th Cir. Case Number(s)
Case Name
The Clerk is requested to award costs to (party name(s)):

I swear under penalty of perjury that the copies for which costs are requested were
actually and necessarily produced, and that the requested costs were actually
expended.
Date

Signature

(use “s/[typed name] ” to sign electronically-filed documents)
REQUESTED
(each column must be completed)

COST TAXABLE
DOCUMENTS / FEE PAID

No. of
Copies

TOTAL
COST

Pages per
Cost per Page
Copy

Excerpts of Record*

$

$

Principal Brief(s) (Opening Brief; Answering
Brief; 1st, 2nd, and/or 3rd Brief on Cross-Appeal;
Intervenor Brief)

$

$

Reply Brief / Cross-Appeal Reply Brief

$

$

Supplemental Brief(s)

$

$

Petition for Review Docket Fee / Petition for Writ of Mandamus Docket Fee

$

TOTAL: $
*Example: Calculate 4 copies of3 volumes of excerpts ofrecord that total 500 pages [Vol. 1 (10 pgs.) +
Vol. 2 (250 pgs.) + Vol. 3 (240 pgs.)] as:
No. of Copies: 4; Pages per Copy: 500; Cost per Page: $.10 (or actual cost IF less than $.10);
TOTAL: 4 x 500 x $.10 = $200.
Feedback or questions about this form? Email us at fnrms(3)ca9. uscourls. gov

Form 10

Rev. 12/01/2018

Case 2:19-cv-05500-JFW-RAO Document 144 Filed 07/19/19 Page 1 of 1 PagelD#:3593

JS-6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

CV 19-5500-JFW(RAOx)

Title:

David Louis Whitehead -v- Netflix Inc., et al.

Date: July 19, 2019

PRESENT:
HONORABLE JOHN F. WALTER, UNITED STATES DISTRICT JUDGE
None Present
Court Reporter

Shannon Reilly
Courtroom Deputy

ATTORNEYS PRESENT FOR PLAINTIFFS:
None
PROCEEDINGS (IN CHAMBERS):

ATTORNEYS PRESENT FOR DEFENDANTS:
None

ORDER DISMISSING ACTION WITH PREJUDICE

On June 24, 2019, this action was transferred from the Eastern District of Texas to the
Central District of California. However, within this district, Plaintiff David Louis Whitehead
(“Plaintiff”) is subject to a Vexatious Litigant Prefiling Order (see David L. Whitehead v. Millennium
Films, 15-CV-3564-RGK(AGRx), Docket No. 229). Pursuant to that Order, “the Clerk of the Court
shall decline any new complaint or petition submitted by David L. Whitehead in this District unless
the complaint or petition has been presented first to a district judge of this court and the judge has
specifically authorized in writing that the complaint or petition may be filed.” The Court has
reviewed Plaintiffs Complaint, First Amended Complaint, and Second Amended Complaint, and
concludes that this action is frivolous. In addition, the Court has reviewed the applications and
motions filed by Plaintiff in this action to date, and concludes that Plaintiff has pursued the same
vexatious and harassing and abusive practices that resulted in the Vexatious Litigant Prefiling
Order in the first place. Accordingly, this action is DISMISSED with prejudice pursuant to the
Vexatious Litigant Prefiling Order.

IT IS SO ORDERED.

Page 1 of 1

Initials of Deputy Clerk sr

Additional material
from this filing is
available in the
Clerk's Office.

